      GOVERNMENT PERFORMANCE AND RESULTS ACT -
      UNFUNDED DEPOT MAINTENANCE REQUIREMENTS


Report No. D-2001-033               January 12, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at: www.dodig.osd.mil or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
GPRA                  Government Performance and Results Act of 1993
OMB                   Office of Management and Budget
                       Office of the Inspector General, DoD
Report No. D-2001-033                                           January 12, 2001
   (Project No. D2000FJ-0103)

      Government Performance and Results Act - Unfunded Depot
                    Maintenance Requirements

                                Executive Summary

Introduction. The Government Performance and Results Act of 1993 (GPRA) was
designed to improve Government-wide program effectiveness, Government
accountability, and ultimately, public confidence by requiring agencies to identify
measurable annual performance goals, against which actual achievements can be
compared. The GPRA requires Federal agencies to prepare strategic plans, annual
performance plans, and program performance reports covering the program activities
set out in their budgets. This report is one in a series on DoD GPRA reporting.

In March 2000, DoD fulfilled its GPRA reporting requirement by publishing its
combined Annual Performance Plan for FY 2001 and Annual Program Performance
Report for FY 1999 in Appendix I of the DoD Annual Report to the President and
Congress. In the Annual Report, DoD established two corporate-level goals and eight
performance goals designed to measure achievement of the two corporate goals. An
additional 49 performance measures and indicators help evaluate the status of
performance goals by assessing the quantifiable outputs of the performance goals.
Performance Indicator 2.3.2, “Unfunded Depot Maintenance Requirements,” is
designed to monitor the trend of unfunded depot maintenance to ensure that
maintenance backlogs do not grow substantially over time. See Appendix B for the
complete text of Performance Indicator 2.3.2. In the GPRA report, DoD indicated it
had met the FY 1999 performance goal for unfunded depot maintenance and that a
maintenance backlog for the Military Departments of $1.2 billion remained as of
September 30, 1999.

Objectives. The objective was to determine whether DoD consistently and accurately
compiled the information used to compute the DoD unfunded depot maintenance
requirements. An additional objective was to determine whether DoD was achieving
the goal of reducing unfunded depot maintenance requirements. A summary report on
DoD GPRA implementation will discuss the management control program.

Results. DoD did not consistently and accurately compile the unfunded depot
maintenance performance results and goals for Performance Indicator 2.3.2, “Unfunded
Depot Maintenance Requirements.” Specifically, DoD did not base FY 1999
performance results and the FY 2001 performance goals presented for the Military
Departments on the best data available. Further, DoD had no supporting
documentation for the reported Navy FY 1999 performance results and the FYs 2000
and 2001 performance goals. Lastly, DoD did not report the FYs 1999, 2000, and
2001 performance goals using a consistent methodology. As a result, the performance
report did not contain reliable data and could not be used to determine conclusively
whether maintenance backlogs are growing substantially over time (finding A).

DoD needs to improve the presentation of Indicator 2.3.2, “Unfunded Depot
Maintenance Requirements,” to provide more meaningful information. DoD needs to
establish a quantifiable benchmark against which to measure the trend in unfunded
depot maintenance, accurately discuss the Navy performance results and the reasons
that the Army and the Navy did not meet the FY 1999 goal, and discuss the
performance trend over the time period presented. As a result of problems with the
presentation of Performance Indicator 2.3.2, the GPRA report was not as meaningful as
it should have been (finding B).

Summary of Recommendations. We recommend the Under Secretary of Defense
(Comptroller), provide unfunded depot maintenance results and goals consistent with
the appropriate year’s President’s budget, reconcile the reported results and goals to the
President’s budget data, and revise the FY 2001 goals using FY 2001 President’s
budget data. We also recommend the Under Secretary of Defense (Comptroller/Chief
Financial Officer) establish and disclose a quantifiable unfunded depot maintenance
benchmark for each Military Department, and improve the explanations of performance
results and reasons for not achieving unfunded depot maintenance performance goals.

Management Comments. The Director of Program Analysis and Evaluation, Under
Secretary of Defense (Comptroller), agreed to compile future performance reports with
data consistent with the President’s budget and to revise the FY 2001 performance
goals using FY 2001 President’s budget data. The Director also agreed to present
funded depot maintenance requirements as a lagging indicator. However, the Director
did not agree that a benchmark based on the percentage of total requirements should be
disclosed.

Audit Response. The Director’s comments were partially responsive. The Director
agreed to revise the performance goal to be consistent with President’s budget data.
We do not agree that displaying actual funded depot maintenance amounts would
establish a suitable benchmark. We request that the Director of Program Analysis and
Evaluation, Under Secretary of Defense (Comptroller), provide additional comments on
that recommendation by March 13, 2001.




                                            ii
Table of Contents

Executive Summary                                                        i

Introduction
     Background                                                          1
     Objectives                                                          3

Findings
     A. Accuracy and Consistency of Unfunded Depot Maintenance
          Performance Results                                            4
     B. Presentation of Performance Indicator 2.3.2, Unfunded Depot
          Maintenance Requirements                                      10

Appendixes
     A. Audit Process
         Scope and Methodology                                          16
         Prior Coverage                                                 17
     B. Performance Indicator 2.3.2 – Unfunded Depot Maintenance        18
     C. Report Distribution                                             19

Management Comments
     Under Secretary of Defense (Comptroller/Chief Financial Officer)   21
Background
    The Government Performance and Results Act of 1993 (GPRA) requires
    Federal agencies to prepare strategic plans, annual performance plans, and
    program performance reports covering the program activities set out in their
    budgets. The Office of Management and Budget (OMB) Circular No. A-11,
    part 2, “Preparation and Submission of Strategic Plans, Annual Performance
    Plans, and Annual Program Performance Reports,” July 7, 1999, as revised
    November 10, 1999, provides implementing guidance on preparing the GPRA
    requirements.
    Government Performance and Results Act of 1993. GPRA was designed to
    improve Government-wide program effectiveness, Government accountability,
    and ultimately, public confidence by requiring agencies to identify measurable
    annual performance goals, against which actual achievements can be compared.
    GPRA was also intended to improve congressional decisionmaking by providing
    more objective information on achieving statutory objectives.
    Beginning in FY 1999, GPRA required Federal agencies to prepare an annual
    performance plan. Comparison of the FY 1999 performance plan against the
    actual FY 1999 performance was required in the first program performance
    report, due by March 31, 2000. The GPRA provides criteria for the
    information required in the reports.
    OMB Circular No. A-11. OMB Circular No. A-11 provides guidance on the
    preparation and submission of the strategic plan, the annual performance plan,
    and the program performance report. In addition to providing implementation
    for GPRA requirements, some of the OMB Circular No. A-11 guidance relates
    to timelines for submission of GPRA data; the general format for the
    presentation of the data; and the possible combination of the strategic plan, the
    annual performance plan, the performance report, and the budget. The OMB
    guidance does not require that the annual plan and the performance report be
    combined.
    The DoD Performance Plan and Report. In March 2000, DoD fulfilled its
    GPRA requirement by publishing its combined FY 1999 Annual Program
    Performance Report and the FY 2001 Annual Performance Plan (the GPRA
    Report) in Appendix I of the Annual Report to the President and Congress.
    Within that report, DoD purports to have one principal output: Military forces
    that are ready to go to war. To measure that output, DoD established two
    corporate-level goals.
       •   Goal 1. Shape the international security environment and respond to the
           full spectrum of crises by providing appropriately sized, positioned, and
           mobile forces.
       •   Goal 2. Prepare now for an uncertain future by pursuing a focused
           modernization effort that maintains U.S. qualitative superiority in key
           warfighting capabilities. Transform the force by exploiting the
           Revolution in Military Affairs and reengineer the Department to achieve
           a 21st century infrastructure.
                                         1
DoD established eight performance goals designed to measure achievement of
the corporate-level goals. An additional 49 performance measures and
indicators help evaluate the status of performance goals by assessing the
quantifiable outputs of the performance goals.
DoD Depot Maintenance. Depot maintenance programs fund the overhaul,
repair, and maintenance of aircraft, missiles, ships, submarines, combat
vehicles, and other equipment. Depot maintenance efforts are performed at both
public (DoD) and private (contractor) facilities. The effort provides the
maintenance necessary to sustain the operational readiness of combat forces, to
ensure the safe and efficient operation of weapon systems, and to renovate assets
that are being transferred from Active Forces to Reserve Components.
Military Departments develop maintenance requirements from projected usage
rates of equipment. Actual funded requirements data are based on obligation
amounts in Military Department finance systems.
Performance Indicator 2.3.2, Unfunded Depot Maintenance Requirements.
Performance Indicator 2.3.2, “Unfunded Depot Maintenance Requirements,” is
intended to monitor the trend of unfunded depot maintenance to ensure that
maintenance backlogs do not grow substantially over time. DoD states that an
upward trend indicates a higher likelihood, but not a certainty, that needed
maintenance will not be accomplished. Performance Indicator 2.3.2 supports
Performance Goal 2.3, “Streamline Infrastructure Through Business Reform.”
Performance Goal 2.3 is intended to streamline the DoD infrastructure by
redesigning the Department's support structure and pursuing business practice
reforms. See Appendix B for the complete text of Performance Indicator 2.3.2.
Unfunded Depot Maintenance Versus Deferred Maintenance. For financial
reporting purposes, the FY 1999 DoD Consolidated Financial Statements
included information on deferred maintenance. Unfunded depot maintenance, as
defined by DoD, and deferred maintenance, as defined by the Federal
Accounting Standards Advisory Board, are intended to include similar, but not
identical, maintenance data. However, accounting policy for reporting deferred
maintenance on DoD assets had not been finalized.
       Unfunded Depot Maintenance. DoD defines unfunded depot
maintenance as the difference, in dollars, between Military Department
estimates of depot maintenance expenditures needed to keep all equipment fully
operational and the amount of maintenance actually funded in the budget.
        Deferred Maintenance. Statement of Federal Financial Accounting
Standards No. 6, “Accounting for Property, Plant, and Equipment,” June 1999,
as amended by Statement of Federal Financial Accounting Standards No. 14,
“Amendments to Deferred Maintenance Reporting,” April 1999, defines
deferred maintenance as maintenance that was not performed when it should
have been or was scheduled to be and which, therefore, is put off or delayed for
a future period.
For FY 1999, DoD reported deferred maintenance on both real property and
National Defense property, plant, and equipment (weapon systems) in the


                                    2
     Required Supplementary Stewardship Information section of the FY 1999 DoD
     Consolidated Financial Statements.
             Status of DoD Deferred Maintenance Reporting Policy. DoD is
     currently developing specific deferred maintenance reporting requirements. In
     the FY 1999 DoD Consolidated Financial Statements, DoD stated that to
     develop the deferred maintenance requirements, it needed clarification to
     standardize deferred-maintenance-related definitions and estimation
     methodologies. The lack of a consistent reporting methodology for deferred
     maintenance resulted in differences between the deferred maintenance reported
     in the FY 1999 DoD Consolidated Financial Statements and Performance
     Indicator 2.3.2. Until DoD implements a consistent deferred maintenance
     policy, the appropriate link between deferred maintenance and unfunded depot
     maintenance cannot be established, detracting from the usefulness of both the
     DoD financial statements and GPRA reports regarding depot maintenance.

Objectives
     Our objective was to determine whether DoD consistently and accurately
     compiled the information used to compute the DoD unfunded depot maintenance
     requirements. We also had the objective to determine whether DoD was
     achieving the goal of reducing unfunded depot maintenance requirements. See
     Appendix A for a discussion of the scope and methodology related to the audit
     objectives. A summary report on DoD GPRA implementation will discuss the
     management control program.




                                        3
           A. Accuracy and Consistency of
              Unfunded Depot Maintenance
              Performance Results
           DoD did not accurately and consistently compile the unfunded depot
           maintenance performance results and performance goals for Performance
           Indicator 2.3.2, “Unfunded Depot Maintenance Requirements.”
           Specifically, DoD did not do the following:

              •   Base either the unfunded requirements presented for the Army,
                  the Navy, and the Air Force for the FY 1999 actual performance
                  results or the FY 2001 performance goals on the best data
                  available;

              •   Provide supporting documentation for the reported Navy
                  FY 1999 performance results and the Navy FYs 2000 and 2001
                  performance goals; and

              •   Report the FYs 1999, 2000, and 2001 performance goals using a
                  consistent methodology.

           The GRPA reporting for this performance indicator was flawed because
           DoD did not have effective controls in place to insure that the data were
           accurately and clearly presented. As a result, the performance indicator
           did not contain reliable data. The lack of reliable data could impair the
           ability to determine whether maintenance backlogs are growing
           substantially over time.



Performance Indicator Data
    Military Department depot maintenance requirements and funding information
    for Performance Indicator 2.3.2 are obtained from a Military Department
    budget exhibit titled OP-30, “Depot Maintenance Program Summary.” All
    three of the Military Departments develop an OP-30 that indicates both funded
    and unfunded requirements for each component for future budget years. The
    components include the Active and Reserve forces as well as the National
    Guard. The initial Military Department depot maintenance funding estimates
    are submitted to the Office of the Secretary of Defense and OMB around the end
    of the fiscal year. These estimates are updated through program budget
    decisions and department adjustments and the revised budget estimates
    accompany the President’s budget submission in the January/February time-
    period. The FY 2001 President’s budget submission portrays the actual
    obligations incurred for FY 1999 as well as budget estimates for FYs 2000 and
    2001.

                                        4
Using Best Available Data
     DoD did not use the best information available to present the unfunded depot
     maintenance requirements data in the GPRA report. The amounts reported were
     based on initial Military Department estimates instead of amounts consistent
     with revised requirements data in the President's budget. The revised
     requirements data were available before the issuance of the GPRA report but
     DoD did not have procedures in place to obtain them in time to be included.
     The amounts presented in the GPRA report and the amounts supported by the
     FY 2001 President’s budget are shown in Table 1. Table 1 shows that the
     FY 2000 performance goal, except for an error in the Navy data, was consistent
     with the FY 2000 President’s budget. However, the FY’s 1999 and 2001
     GPRA information was not based on the President’s budget.

          Table 1. Amounts Reported in the GPRA Report and Amounts
                     Supported by the President’s Budget
                             (dollars in millions)
        Military       FY 1999 Actual           FY 2000 Goal         FY2001 Goal
      Department     GPRA     2001 PB *       GPRA     2000 PB *   GPRA 2001 PB *
      Army           $454       $452          $191       $191      $254     $ 231
      Navy            630        663           779**      589       917      1,092
      Air Force       104          65          339        339       223        136

       * President’s Budget.
      ** Navy error.


     Table 1 shows that in some cases, especially for the Army data, the differences
     between the President’s budget and the GPRA report, prepared in March 2000,
     were slight. However, the Air Force FY 1999 actual performance result and
     the Navy and the Air Force FY 2001 performance goals were significantly
     different than the amounts reported. The Air Force unfunded depot
     maintenance requirements’ FY 1999 actual performance result reported in the
     FY 2001 President’s budget was $65 million, or 37.5 percent less than the
     $104 million reported in the GPRA report. The Navy FY 2001 President’s
     budget estimate of $1,092 million was 19.1 percent greater than the
     $917 million reported in the GPRA report. The Air Force FY 2001 President’s
     budget estimate was $136 million, or 39 percent less than the $223 million
     reported as the GPRA goal.
     President's Budget Data. Within Performance Indicator 2.3.2, DoD disclosed
     that some of the data were based on preliminary budget estimates. The budget
     estimates were based on older requirements data available during September and
     October of 1999. Office of Program Analysis and Evaluation personnel stated
     that the initial Military Department estimates were used because updated
     requirements data from the Military Departments could not be obtained in time

                                          5
    to be included in the GPRA report. As required by OMB Circular No. A-11,
    DoD should have reported its performance goals consistent with the President’s
    budget and not with those based on earlier estimates. In addition, based on
    information obtained and discussions with Military Department personnel, the
    President’s budget data on depot maintenance requirements were available
    before the established cutoff date and the updated performance results could
    have been included. Although OMB Circular No. A-11 allows for the use of
    preliminary budget estimates for reporting performance results, we determined
    that updated data were available that were consistent with the President’s budget
    amounts and therefore should have been included in the GPRA report.


Supporting Documentation for Navy Data
    Neither the Office of Program Analysis and Evaluation, nor the Navy
    Comptroller’s office could provide supporting documentation for the reported
    FY 1999 Navy performance result or the FYs 2000 and 2001 Navy performance
    goals. The FY 1999 performance result and the FYs 2000 and 2001
    performance goals presented in the GPRA report should be consistent with
    OP-30 budget data. The Army and Air Force were able to provide adequate
    OP-30 supporting documentation for the information presented in the GPRA
    performance report. The Office of Program Analysis and Evaluation, and the
    Navy Comptroller’s office agree that the Navy amounts presented were
    incorrect and stated that they could not determine the source of the data.
    Material differences existed between the amounts reported and the amounts
    supported by the OP-30 data, as previously indicated in Table 1. DoD officials
    were not aware that amounts presented in the GPRA report were not consistent
    with Navy depot maintenance budget data.


Consistent Methodology
    DoD did not report the FYs 1999, 2000 and 2001 performance goals using a
    consistent methodology, as required by OMB guidance. DoD presented both
    the FY 1999 and 2000 performance goals based on the FY 2000 President’s
    budget and presented the FY 2001 performance goal based on the FY 2001
    initial Military Department estimate to the Office of the Secretary of Defense,
    not the updated approved President’s budget. The presentation of the FY 2000
    performance goal, consistent with the FY 2000 President’s budget, was in
    accordance with OMB Circular No. A-11 guidance. The OMB guidance
    requires Federal agencies to present yearly performance goals consistent with
    the corresponding year’s President’s budget.
    Presentation of the FY 1999 Performance Goal. The FY 1999 performance
    goal established in the FY 1999 President’s budget and the goal presented in
    GPRA performance report, based on the FY 2000 President’s budget, was
    substantially less. The Military Department performance goals in the FY 1999
    President’s budget amounts were $66 million (15 percent) less for the Army,
                                        6
   $226 million (39 percent) less for the Navy, and $205 million (109 percent) less
   for the Air Force than the amounts reported in GPRA. The Office of Program
   Analysis and Evaluation was aware of the inconsistency and stated that the
   FY 1999 goal should have been consistent with the FY 1999 President’s budget.
   Within Performance Indicator 2.3.2, DoD disclosed that the FY 1999
   performance goal was revised based on FY 2000 budget data. According to the
   Office of the Under Secretary of Defense for Acquisition, Technology, and
   Logistics, the FY 1999 performance goal was revised because the FY 2000
   President’s budget contained more accurate information than the FY 1999
   budget estimates.
   Presentation of FY 2000 Performance Goal. The presentation of the FY 2000
   performance goal, consistent with the FY 2000 President’s budget, except for an
   error in the Navy data, was in accordance with OMB Circular No. A-11
   guidance.
   Revising the FY 2001 Performance Goal. The FY 2001 performance goal
   was based on the initial Military Department estimates instead of the President’s
   budget. Therefore, to consistently present the performance goals in accordance
   with OMB Circular No. A-11, DoD will have to revise the FY 2001
   performance goals. Specifically, the FY 2001 goals should be restated in next
   year’s performance report to be consistent with the FY 2001 President’s budget
   and not FY 2002 budget data. The amounts to be revised, consistent with the
   FY 2001 President’s budget, are $231 million for the Army, $1,092 million for
   the Navy, and $136 million for the Air Force. Beyond FY 2001, revisions to
   performance goals will not be required if data consistent with the President’s
   budget are presented.


Ensuring Compliance With GPRA Requirements
   DoD did not have effective controls in place to insure that GPRA reporting for
   this performance indicator were accurate and clearly presented. Additional
   procedures could be incorporated into the preparation instructions for
   Performance Indicator 2.3.2 that would improve the information presented in
   Performance Indicator 2.3.2.
   Using President’s Budget Data. DoD did not use the best data available,
   consistent with the FY 2001 President’s budget data, in its GPRA report. OMB
   Circular No. A-11 requires that DoD submit its annual report to the President
   and Congress by March 31 and that the performance results and goals be
   consistent with the President’s budget. DoD did not establish procedures to
   ensure that the goals and results presented were consistent with the President's
   budget data. Although DoD disclosed that the President’s budget data were not
   used, these data were available in time to have been included in the annual
   performance report published in March 2000.
   Support for Performance Data. DoD did not establish procedures to ensure
   that the Military Departments’ GPRA performance indicator data were
   reconciled to supporting data. As a consequence, the Navy data were not

                                       7
    supported by OP-30 budgetary data. Although the OP-30 reports were available
    to the Navy Comptroller officials, DoD did not use the reports to verify the
    performance information. Had DoD compared the OP-30 data with the
    performance data, the reported amount could have been changed to be more
    accurate.
    Presenting Consistent and Revised Data. DoD did not establish procedures to
    ensure that the FYs 1999 and 2001 performance goals corresponded to the
    concurrent year’s President's budget data as required by OMB Circular
    No. A-11. DoD presented the FY 1999 goal using the amounts presented in the
    FY 2000 President’s budget. DoD should have presented the FY 1999
    performance goal based on the FY 1999 President's budget. DoD presented the
    FY 2001 performance goal based on initial Military Department estimates
    instead of the FY 2001 President’s budget data.

Summary
    Performance Indicator 2.3.2 did not contain reliable data. The performance
    results and goals were not based on the best available data, the Navy
    performance data were unsupported, and DoD did not report the FYs 1999,
    2000, and 2001 performance goals using a consistent methodology.
    Inconsistencies between the GPRA report and the President’s budget detract
    from the credibility of the results and goals presented in the GPRA report.

Recommendations, Management Comments, and Audit
  Response
    A. We recommend the Under Secretary of Defense (Comptroller/Chief
    Financial Officer), in compiling future GPRA reports:
           1. Present unfunded depot maintenance results and goals consistent
    with the current President’s budget data.
    Management Comments. The Director of Program Analysis and Evaluation,
    Under Secretary of Defense (Comptroller/Chief Financial Officer), concurred
    and agreed to compile future GPRA reports with data consistent with the
    President’s budget. However, the Director stated that the Office of Program
    Analysis and Evaluation will change Performance Indicator 2.3.2 so that it is a
    lagging indicator and eliminate the time phasing problem with the availability of
    budget data. See the Management Comments section of the report for the
    complete text of the comments.


           2. Reconcile the reported performance results and goals to the
    President’s budget data.
    Management Comments. The Director, Program Analysis and Evaluation,
    Under Secretary of Defense (Comptroller/Chief Financial Officer), agreed to
    compile future reports with data consistent with the President’s budget.

                                        8
      3. Revise the FY 2001 performance goals using FY 2001 President’s
budget data.
Management Comments. The Director, Program Analysis and Evaluation,
Under Secretary of Defense (Comptroller/Chief Financial Officer), concurred
with the recommendation.




                                  9
           B. Presentation of Performance
              Indicator 2.3.2, Unfunded Depot
              Maintenance Requirements
           DoD needed to improve the presentation of Performance Indicator 2.3.2,
           “Unfunded Depot Maintenance Requirements,” to provide readers with
           more meaningful information. The following weaknesses existed:

              •   The performance indicator did not include a quantifiable
                  benchmark against which to measure the trend in unfunded depot
                  maintenance requirements.

              •   The “Actual and Projected Performance” section did not discuss
                  the reason that the Army did not meet the goal, accurately present
                  the Navy performance results, or discuss the performance trend
                  over the time period presented.

           The weaknesses occurred because DoD did not comply with the intent of
           the GPRA and OMB Circular No. A-11 requirements for the
           presentation of performance information. As a result, Performance
           Indicator 2.3.2 did not provide clear and useful information.




Presentation of Unfunded Depot Maintenance Performance
  Results
    DoD needed to improve its presentation of unfunded depot maintenance
    performance results to report more meaningful information. Performance
    indicators are intended to help evaluate the status of performance goals by
    assessing their quantifiable outputs. To evaluate performance goal 2.3,
    “Streamline Infrastructure Through Business Reform,” DoD needed to include a
    benchmark to measure performance results, and to appropriately discuss the
    performance results.


    Displaying the Performance Results. The performance indicator did not
    provide a quantifiable benchmark against which to measure the trend in
    unfunded depot maintenance requirements. An established benchmark would
    provide users and readers with the level of unfunded depot maintenance
    requirements that DoD managers are willing to accept.
            Establishing a Benchmark. The desired level of unfunded depot
    maintenance requirements for each Military Department, expressed as a
    quantifiable benchmark, is not provided in the GPRA report. Therefore, the
    reader would be unable to interpret the optimal level of unfunded requirements
                                       10
and whether the actual amounts are necessarily favorable. Based on
performance data presented, the reader must assume that FY 1997 was
established as the baseline year that future years would be measured against.
However, information was not provided to inform the reader whether FY 1997
results represent the desired benchmark on which future years should be judged.
An established benchmark or baseline amount is not necessary to determine
whether unfunded depot maintenance requirements are increasing or decreasing
over time. However, readers cannot determine whether the amounts presented
represent desired levels of unfunded depot maintenance. Therefore, establishing
a benchmark would improve the understanding and acceptance of the
performance results.
Without established benchmarks, readers and users could make improper
assumptions and decisions about the large dollar differences between the actual
unfunded depot maintenance amounts that each of the Military Departments
reported. For example, in FY 1997, the reported Navy unfunded amount was
$782 million compared with $226 million for the Air Force, a difference of
$556 million. A user cannot determine whether the funding information was
adequate or whether it suggested the need for additional funding for the Navy or
the Air Force. Accordingly, establishing and presenting a benchmark amount of
unfunded depot maintenance requirements for each Military Department would
prevent potential confusion about the data presented. The benchmark would
also provide valuable unfunded depot maintenance requirements information for
later years’ performance results.
         Presenting a Meaningful Benchmark. Because of the possibility of
material changes to Military Department requirements, the unfunded depot
maintenance benchmark should be stated as a percentage of total requirements.
Military Department depot maintenance requirements are volatile and can
change significantly from year to year. For example, total requirements from
FYs 1997 through 1999 for the Navy were $4 billion, $4.2 billion, and
$4.7 billion, respectively, a difference of $700 million over the 3 years.
However, the DoD presentation methodology using unfunded dollars as the
measure would not show any progress if the unfunded amount remained constant
or increased at a lesser rate than requirements over the time period. Therefore,
because of the volatility of requirements and the potential for misunderstanding,
the established unfunded depot maintenance benchmark would be most
meaningful stated as a percentage of total requirements. Table 2 is an
illustration of how the presentation of the trend in unfunded depot maintenance
requirements could be presented using FYs 1997 through 2001 President’s
budget data.




                                   11
                 Table 2. Trend in Unfunded Depot Maintenance Requirements:
                    Dollars Compared With Percent of Total Requirements
                                      dollars in millions *

                                      1997       1998      1999            1999     2000     2001
                                     Actual     Actual     Actual          Goal     Goal     Goal
Army requirements                    $1,266     $1,239     $1,187          $1,223    $835    $1,127
Army unfunded amount                    457        543        452             506     191       231
Army unfunded percent                    36         44         38              41      19        20

Navy requirements                    $3,977     $4,228      $4,659         $4,492   $4,786   $4,769
Navy unfunded amount                    782        608         663            811      589    1,092
Navy unfunded percent                    20         14          14             18       12       23

Air Force requirements               $1,802     $2,459      $2,343         $2,539   $2,501   $2,583
Air Force unfunded amount               227        271          65            392      339      136
Air Force unfunded percent               13         11           6             15       14        5
*
    All numbers are taken from the Military Departments’ budget reports.


    The appropriate unfunded depot maintenance benchmark would be included
    either in Table 2 or in the supporting narrative section. We believe that using
    such a presentation methodology with a benchmark established as a percentage
    of total requirements would show whether unfunded amounts are at acceptable
    levels and helps the user determine the level at which requirements are being
    funded.
    Adequacy of Performance Indicator Discussion. The “Actual and Projected
    Performance” section of Performance Indicator 2.3.2 did not discuss the reason
    that the Army did not meet the FY 1999 goal, did not accurately reflect the
    Navy performance results, or discuss the performance trend over the time
    period presented.
            Army Results. DoD appropriately reported that the Army fell short of
    the stated FY 1999 goal by 3 percent. However, DoD did not disclose the
    reason or reasons that it did not achieve the goal as required by OMB Circular
    No. A-11 GPRA guidance. Readers need additional information to assess the
    significance of instances when the goal is not achieved.
            Navy Results. DoD did not accurately report the Navy performance
    results in the “Actual and Projected Performance” section of the indicator.
    DoD reported that the Navy exceeded its goal by 24 percent for FY 1999.
    However, that result was not supported by the amounts in Performance Indicator
    2.3.2. The indicator reported the FY 1999 Navy unfunded depot maintenance
    goal as $585 million and that the Navy had an actual unfunded amount of
    $630 million. Those amounts show that the Navy actually fell short of its goal
    by 8 percent. Therefore, the performance indicator should have shown that the
    Navy did not meet its performance goal for FY 1999 and should have stated the
    reason that it did not achieve the goal.


                                                 12
            Disclosing Performance Over Time. The performance results
    discussed in the “Actual and Projected Performance” section included
    information for only FY 1999. The purpose of the performance information, as
    stated in the “Metric Description” section, is to prevent maintenance backlogs
    from growing substantially over time and to verify that proposed expenditures
    protect assigned readiness levels. The performance information presented
    provides only limited information for that comparison. Specifically, the trend in
    actual and future unfunded requirements is not addressed in the performance
    narrative section. Additional information would provide the rationale for
    establishing the FY 2000 unfunded goals for the Navy and the Air Force. The
    Navy goal of $779 million is similar to the actual unfunded amount reported for
    FY 1997 after a slightly downward trend for FYs 1998 and 1999. Therefore,
    the Navy 2000 goal, as stated, reverses the downward trend and would increase
    the unfunded depot maintenance level back to the FY 1997 level. Similarly, the
    Air Force FY 2000 unfunded goal of $339 million represents the highest
    unfunded amount for any year presented and is $113 million (50 percent) higher
    than the 1997 baseline amount of $226 million. The data show an upward trend
    for the Air Force unfunded depot maintenance requirements over the 4-year
    period. Because of the large upward and downward changes in the unfunded
    amounts presented over the 5-year period, additional details about the respective
    Military Department's data would improve reader understanding.


Compliance With GPRA Reporting Requirements
    DoD did not fully comply with the intent of the GPRA and OMB Circular
    No. A-11 requirements for the presentation of performance information. OMB
    Circular No. A-11, part 2, July 1999, provides implementing guidance for
    Government Performance and Results Act requirements such as developing
    performance goals and indicators and comparing performance results with the
    performance goal target level.
    Developing Goals and Indicators. OMB Circular No. A-11 requires that
    agencies develop goals and indicators that can be expressed in an objective and
    quantifiable manner and inform the President, Congress, and other interested
    parties of the expected level of achievement for the program or activity. DoD
    met the intent of GPRA by expressing Performance Indicator 2.3.2 in an
    objective and quantifiable manner. However, DoD did not inform readers of
    the expected level of achievement for the unfunded amounts presented. DoD
    should have disclosed a benchmark or target amount to inform readers of
    acceptable or tolerable unfunded depot maintenance levels. Reductions in
    unfunded levels may not be sustainable over the long-term. Therefore, a
    benchmark amount would improve acceptance of results in times when
    reductions are not feasible but actual amounts are within the desired target level.
    Comparing Actual and Projected Performance. OMB Circular No. A-11
    requires a comparison of the actual level of performance with the established
    goal and an explanation of why a goal was not met, even if the difference is
    slight. DoD attempted to comply with that requirement for Performance
    Indicator 2.3.2 and partially succeeded in that the Army and Air Force
                                        13
    performance results were calculated accurately. However, the discussion of the
    Navy performance results was inaccurate because the results were not calculated
    properly. Therefore, based on the amounts presented, the Army and the Navy
    did not meet their goals by 3 and 8 percent, respectively. DoD should have
    included additional information about why the Army and the Navy did not meet
    their performance goals and whether the shortfalls negatively impacted program
    performance or readiness.


Value of Information Presented
    Performance Indicator 2.3.2 did not provide readers and decisionmakers with
    complete unfunded depot maintenance information that was as clear and useful
    as it could have been.
    Trend Analysis. DoD needed additional information about the trend in
    unfunded requirements for each Military Department because the performance
    measure is designed to show whether depot maintenance backlogs are growing
    over time. DoD presented performance data for 5 years from FYs 1997 through
    2001 but discussed only FY 1999 results, stating that the performance targets
    were effectively met. Of the 5 years of performance data, the FYs 1997
    through 1999 data were actual results but the FYs 2000 through 2001 data were
    performance goal estimates. DoD did not provide any analysis or interpretation
    of the unfunded depot maintenance trend for the time period covering the actual
    or estimated results. The GPRA performance report could have provided
    additional details about the downward trend for the Army for FYs 1997 through
    2001 and explained the rationale for the apparent upward trend for the Navy and
    the Air Force in FYs 2000 and 2001.
    Supporting Presented Performance Results. The discussion of the FY 1999
    performance results needed improvements so that it supported the data
    presented. Users need complete and accurate information to form conclusions
    and make decisions. Therefore, the performance results discussion should
    mirror and augment the performance data presented. DoD needed
    improvements to accurately present the Navy performance results and to discuss
    the reason that the Army and the Navy did not achieve their respective
    performance goals, had the Navy results been calculated properly. The
    additional information would have directly supported the Military Department
    performance results.




                                      14
Recommendations, Management Comments and Audit
  Response
    Deleted and Renumbered Recommendations. As a result of management
    comments, we deleted draft Recommendation B.1. Draft Recommendations
    B.2. and B.3. have been renumbered as Recommendations B.1. and B.2.
    respectively.
    B. We recommend the Under Secretary of Defense (Comptroller/Chief
    Financial Officer) improve the GPRA reporting for Performance Indicator
    2.3.2. Specifically,
           1. Establish and disclose a quantifiable unfunded depot maintenance
    benchmark for each Military Department, displayed as a percentage of total
    requirements.
    Management Comments. The Director, Program Analysis and Evaluation,
    Under Secretary of Defense (Comptroller/Chief Financial Officer), partially
    concurred that the unfunded depot maintenance benchmark should be presented
    as a percentage of unfunded requirements. However, the Director stated that in
    the future, the performance indicator will include the actual funded requirement
    amount. Rather than display a percentage of total requirements.
    Audit Response. The Director’s comments were not responsive. Although
    disclosing the funded requirements in the GPRA report would be useful
    information, year-to-year funded requirements are not the best data to be used as
    a benchmark. We believe that a benchmark based on percentage of unfunded
    depot maintenance requirements is the best means of assessing the desired level
    of unfunded amounts over time and for disclosing the unfunded level that DoD
    managers are willing to accept. Continuous reductions in unfunded levels may
    not be sustainable over the long-term. Therefore, a benchmark amount would
    improve acceptance of results in times when reductions are not feasible but
    actual amounts are within the desired target level. We request that the Director,
    Program Analysis and Evaluation, Under Secretary of Defense
    (Comptroller/Chief Financial Officer), reconsider his position and provide
    additional comments to the final report.
          2. Present accurate discussions of performance results and the
    reasons for not achieving unfunded depot maintenance performance goals,
    even when the shortfall is only slight.
    Management Comments. The Director, Program Analysis and Evaluation,
    Under Secretary of Defense (Comptroller/Chief Financial Officer), concurred
    and agreed to include discussions of why a performance target was not met,
    when necessary.




                                       15
Appendix A. Audit Process

Scope and Methodology
    Work Performed. In its annual performance report, DoD reported that the
    Department effectively met its performance target for Performance Indicator
    2.3.2, “Unfunded Depot Maintenance,” in FY 1999. DoD reported FY 1999
    unfunded amounts of $454 million for the Army, $630 million for the Navy,
    and $104 million for the Air force. DoD also reported that the information used
    to determine unfunded depot maintenance was derived from existing budget
    data, which were composed of Military Departments’ estimates and obligation
    data from the Defense Finance and Accounting Service. To audit Performance
    Indicator 2.3.2, we verified that the supporting budget data existed and were
    used in Performance Indicator 2.3.2. We also made inquiries of DoD and the
    Military Departments’ Comptroller staffs to determine the methodology used to
    prepare the budget reports and to compile requirements data for Performance
    Indicator 2.3.2. We reviewed prior audit reports issued by the Military
    Departments’ audit organizations and contacted Military Departments’ audit
    representatives to determine the extent of prior audits.
    Limitations to Scope. We determined whether DoD consistently and accurately
    compiled unfunded depot maintenance requirements for Performance Indicator
    2.3.2. However, we could not determine whether DoD was achieving the goal
    of reducing unfunded depot maintenance requirements because the data were not
    accurate or consistent. We performed limited tests of management controls.
    The tests included reviewing management disclosures made in the Annual
    Statements of Assurance, reviewing the management control program as it
    related to GPRA, and performing tests of compliance with laws and regulations,
    such as the GPRA and OMB Circular No. A-11 requirements applicable to
    Performance Indicator 2.3.2. A summary report will be issued discussing the
    management control program as it relates to the overall GPRA report. We
    reviewed Military Departments' budget reports but did not validate the
    requirement and obligation data used to compile the budget reports. The
    Military Departments' audit organizations have previously reported that DoD
    accounting and finance systems were noncompliant with Federal financial
    management requirements and obligation data were not reliable.
    Computer-Processed Data. We used summary requirements, budget, and
    financial system computer data that supported the DoD Planning, Programming,
    and Budgeting System. We relied on the computer-processed data without
    performing tests of system general and application controls to confirm the
    reliability of the data. However, not establishing the reliability of the computer-
    processed data will not materially affect the results of our audit.
    Audit Type, Date, and Standards. We performed this program audit from
    April through September 2000 in accordance with auditing standards issued by
    the Comptroller General of the United States, as implemented by the Inspector


                                        16
    General, DoD. Accordingly, we included tests of management controls
    considered necessary.
    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Prior Coverage
    The General Accounting Office; the Inspector General, DoD; the Army Audit
    Agency; the Air Force Audit Agency; and the Logistics Management Institute
    have conducted multiple reviews related to depot maintenance.
    General Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov.
    Inspector General, DoD, reports can be accessed on the Internet at
    http://www.dodig.osd.mil/audit/reports.
    Army Audit Agency reports can be accessed on the Internet at:
    http://www.hqda.army.mil/AAAWEB/.
    Air Force Audit Agency reports can be accessed on the Internet at:
    http://www.afaa.hq.af.mil/afck/plansreports/reports.shtml.
    Logistics Management Institute reports can be searched on the Internet at:
    http://www.lmi.org/reports.html and may be ordered by emailing
    library@lmi.org.




                                       17
Appendix B. Performance Indicator 2.3.2 -
            Unfunded Depot Maintenance
     Performance Indicator 2.3.2 – Unfunded Depot Maintenance Requirements ($ in Millions)
                         FY 1997             FY 1998                         FY 1999                  FY 2000      FY 2001
                          Actual              Actual                     Goal/Actual                   Goal         Goala
                                                                                 b                  a            b
   Army                            457                 543                   440               454           191        254
   Navy                            782                 608                   585b              630a          779b       917
   Air Force                       226               270.5c               187.8b               104a          339b       223
   a
      Preliminary figures. Final values will be included in the President’s FY 2001 budget submission
      (databook).
   b
      Reflects adjustments to the goal identified in the FY 2000 GPRA performance plan, which did not
      account for final revisions to the FY 2000 budget request.
   c
      Revised. The figure given in the FY 2000 GPRA performance plan—$218 million—applied to the
      active component only. When the Air National Guard and Air Force Reserve are included, the
      requirement increases to $270.5 million.

Metric Description. Unfunded depot maintenance is the difference, in dollars, between Service estimates of depot maintenance
expenditures needed to keep all equipment fully operational and the amount of maintenance actually funded in the budget. The FY 2001
goals reflect the outcome of budget decisions made during the PPBS process.

The Services determine annual maintenance requirements from projected usage rates of equipment. Service funding requests are generally
lower than forecast requirements, but the unfunded portion of the requirement does not necessarily mean that maintenance will be forgone.
Inspections accomplished prior to and during depot maintenance sometimes identify overhaul options that would be less costly to carry out
than those reflected in the original workload projections. Moreover, unscheduled repairs often satisfy depot maintenance requirements.
Performance Indicator 2.3.2 permits the comparison of unfunded requirements over time. An upward trend indicates a higher likelihood
(but not a certainty) that needed maintenance will not be accomplished.

Performance Indicator 2.3.2 is not intended to measure the success of the depot maintenance program in any given year. Annual
performance of depot maintenance programs is captured under Performance Indicator 2.3.8, Defense Working Capital Fund. In turn, that
metric’s evaluation of each working capital fund is supported by underlying cost, timeliness, and quality objectives.

V&V Methodology. Service requirements are reviewed annually through the PPBS process. The intent of these reviews is to ensure the
Department has in place an executable program that will prevent maintenance backlogs from growing substantially over time. The reviews
also provide a means of verifying that Service–proposed expenditures for depot maintenance protect assigned readiness levels in the budget
year.

Actual and Projected Performance. The Department effectively met its performance target for unfunded maintenance in
FY 1999. While the Army fell 3 percent short of its goal, the Navy and Air Force exceeded their goals by 24 percent and 45 percent,
respectively. No significant shortfalls are projected for FY 2000.




Source: DoD Annual Report to the President and Congress, Appendix I, March 2000




                                                                   18
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Superintendent, Naval Postgraduate School

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Defense Systems Management College

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center




                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       20
          Director, Program Analysis and Evaluation
          Comments




Deleted




                             21
22
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector, DoD, who contributed to the report are listed below.

     F. Jay Lane
     Salvatore D. Guli
     James L. Kornides
     Stuart D. Dunnett
     Ted R. Paulson
     Mark Starinsky
     James C. Darrough
     Lisa S. Sherck
     Karen Bennett
